No:

In the
Supreme Court of the United States

JONATHAN ORTIZ TORRES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF FILING

I, Jonathan Ortiz Torres, do hereby certify under penalty of perjury pursuant to
Title 28 U.S.C. § 1746, that on October

\

, 20201 placed my copy of my

petition for a Writ of Certiorari to the United States Supreme Court in the Federal
FCI Butner Low - Legal Mail Box for mailing with sufficient First Class Postage.
Accordingly, the Writ of Certiorari was timely mailed to this Court for filing prior
to the filing deadline.

RECEIVED
OCT 1 6 2020

I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.
Done this { , day of October 2020.

Jonathan Ortiz-Torres
Register Number: 34557-069
Coleman Medium FCI
P.O. Box 1032
Coleman, FL 33521

No:

In the
Supreme Court of the United States

JONATHAN ORTIZ TORRES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PROOF OF SERVICE

I, Jonathan Ortiz Torres, do swear declare that on this day,

day of

October 2020, as required by Supreme Court Rule 29,1 have served the enclosed
Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari,
on the Solicitor General of the United States, Room 5614, Department of Justice,
10th Street and Constitution Ave., N.W., Washington, D.C. 20530, and every other
person required to be served, by depositing the same in the Prison’s Legal Mail
Box with sufficient First Class Prepaid Postage.

Done this

(

, day of October 2020.

Jonathan Ortiz-Torres
Register Number: 34557-069
Coleman Mediup FCI
P.O. Box 1032
Coleman, FL 33521

